No. 21-145
In the

Supreme Court of the United States
__________________
GORDON COLLEGE, ET AL.,
Petitioners,
v.
MARGARET DEWEESE-BOYD,
Respondent.
__________________
On Petition for Writ of Certiorari to the
Supreme Judicial Court of Massachusetts

__________________
BRIEF OF AMICUS CURIAE NATIONAL
HISPANIC CHRISTIAN LEADERSHIP
CONFERENCE IN SUPPORT
OF PETITIONERS
__________________
TIMOTHY J. NEWTON
Counsel of Record
MURPHY & GRANTLAND, P.A.
Post Office Box 6648
Columbia, South Carolina 29260
(803) 782-4100
tnewton@murphygrantland.com
Counsel for Amicus Curiae

Becker Gallagher · Cincinnati, OH · Washington, D.C. · 800.890.5001

i
TABLE OF CONTENTS
TABLE OF AUTHORITIES . . . . . . . . . . . . . . . . . . . ii
INTEREST OF AMICUS CURIAE . . . . . . . . . . . . . . 1
SUMMARY OF ARGUMENT . . . . . . . . . . . . . . . . . . 1
ARGUMENT . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 2
CONCLUSION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 17

ii
TABLE OF AUTHORITIES
CASES
Bostock v. Clayton County,
140 S. Ct. 1731 (2020). . . . . . . . . . . . . . . 2, 4, 7, 16
Boy Scouts of America v. Dale,
530 U.S. 640 (2000). . . . . . . . . . . . . . . . . . . . . 4, 11
Church of the Lukumi Babalu Aye, Inc. v.
City of Hialeah, 508 U.S. 520 (1993) . . . . . . . . . 11
Corporation of the Presiding Bishop of the
Church of Jesus Christ of Latter-Day
Saints v. Amos, 483 U.S. 327 (1997) . . . . . . . . . . 7
DeWeese-Boyd v. Gordon Coll.,
487 Mass. 31, 163 N.E.3d 1000 (2021). . . . passim
DeWeese-Boyd v. Gordon Coll.,
No. CV 1777CV01367, 2020 WL 1672714
(Mass. Super. Apr. 2, 2020) . . . . . . . . . . . . . . . . 2
Employment Div., Dep’t of Human Resources of
Ore. v. Smith, 494 U.S. 872 (1990) . . . . . . . . . . 11
Fulton v. City of Philadelphia, Penn.,
141 S.Ct. 1868 (2021) . . . . . . . . . . . . . . . . . . . 4, 15
Hosanna-Tabor Evangelical Lutheran Church
and School v. E.E.O.C.,
565 U.S. 171 (2012). . . . . . . . . . . . . . . . . . . passim
Kedroff v. Saint Nicholas Cathedral of
Russian Orthodox Church in N. Am.,
344 U.S. 94 (1952). . . . . . . . . . . . . . . . . . . . . . . . . 5

iii
Kelsey v. Distler,
141 A.D. 78, 125 N.Y.S. 602 (App. Div. 1910) . . . 9
Lemon v. Kurtzman,
403 U.S. 602 (1971). . . . . . . . . . . . . . . . . . . . . . . 10
Lynch v. Donnelly,
465 U.S. 668 (1984). . . . . . . . . . . . . . . . . . . . . . . 11
Masterpiece Cakeshop, Ltd. v. Colorado Civ.
Rights Comm’n, 138 S.Ct. 1719 (2018) . . . . . 3, 11
McDaniel v. Paty,
435 U.S. 618 (1978). . . . . . . . . . . . . . . . . . . . . . . 10
Minersville School District v. Gobitis,
310 U.S. 586 (1940). . . . . . . . . . . . . . . . . . . . 12, 13
Obergefell v. Hodges,
576 U.S. 644 (2015). . . . . . . . . . . . . . . . . 3, 4, 7, 16
Our Lady of Guadalupe Sch. v. Morrissey-Berru,
140 S.Ct. 2049 (2020) . . . . . . . . . . . . . 6, 7, 8, 9, 10
Romer v. Evans,
517 U.S. 620 (1996). . . . . . . . . . . . . . . . . . . . . 7, 15
Starkey v. Roman Catholic Archdiocese of
Indianapolis, Inc., 496 F. Supp. 3d 1195
(S.D. Ind. 2020) . . . . . . . . . . . . . . . . . . . . . . . . . . . 8
W. Virginia State Bd. of Educ. v. Barnette,
319 U.S. 624 (1943). . . . . . . . . . . . . . . . . . . . 14, 15
Watson v. Jones,
13 Wall. 679, 20 L.Ed. 666 (1872) . . . . . . . . . . . . 5

iv
Zorach v. Clauson,
343 U.S. 306 (1952). . . . . . . . . . . . . . . . . . . . . . . 11
STATUTES
42 U.S.C. 2000e-1 . . . . . . . . . . . . . . . . . . . . . . . . . . . . 5
OTHER AUTHORITIES
Marley Cole, Jehovah’s Witnesses: The New World
Society 111 (1955) . . . . . . . . . . . . . . . . . . . . . . . . 13
Ryan Daniels, The Gay Religion, 19 S. Cal.
Interdisc. L.J. 129 (Fall 2009) . . . . . . . . . . . . . . 10
Chai R. Feldblum, Moral Conflict and Liberty: Gay
Rights and Religion, 72 Brook. L. Rev. 61 (2006)
........................................ 7
Paul Finkelman, Civil Rights in Historical Context:
In Defense of Brown, 118 Harv. L. Rev. 973
(2005). . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 13
T. Jeremy Gunn, Religious Freedom and Laïcité: A
Comparison of the United States and France,
2004 B.Y.U. L. Rev. 419 (2004) . . . . . . . . . . 12, 13
Brett G. Scharffs, Echoes from the Past: What We
Can Learn About Unity, Belonging and
Respecting Differences from the Flag Salute
Cases, 25 BYU J. Pub. L. 361 (2011) . . . . . . 12, 13
Austin Vining, How One Religious Group Shaped
Free Speech Jurisprudence in the Early 20th
Century, Journalism History (Apr. 23, 2019),
https://journalism-history.org/2019/04/23/jehova
hs-witnesses-and-the-first-amendment/ . . . . . . 13

1
INTEREST OF AMICUS CURIAE1
The National Hispanic Christian Leadership
Conference (“NHCLC”) exists to unify, serve, and
represent the Hispanic Evangelical Community with
the divine (vertical) and human (horizontal) elements
of the Christian message via its 7 Directives of Life,
Religious Liberty, and Biblical Justice. NHCLC is The
Association of Latino Evangelicals, recognized and
identified as America’s largest and most influential
Hispanic/Latino Christian organization with more than
40,000 certified member churches in the United States
and chapters in Latin America. The NHCLC is
committed to upholding the freedom of Christian
individuals and ministries in the exercise of their
religious beliefs.
SUMMARY OF ARGUMENT
This case is about the right of religious schools to
choose their teachers. The Constitution protects the
rights of religious groups to hold their employees to
standards that reflect their values. As this Court has
extended the rights of LGBTQ+ persons, it has also
emphasized that religious rights will continue to be
1

Pursuant to Supreme Court Rule 37.3(a), amicus certify that both
parties have consented to the filing of amicus briefs. Ten-day
notice has been provided to counsel of record for all parties of
intent to file under Rule 37.2.(a). Pursuant to Supreme Court Rule
37.6, counsel for amicus certifies that no counsel for a party
authored this brief in whole or in part, and no counsel or party
made a monetary contribution intended to fund the preparation or
submission of this brief. No person other than amicus or their
counsel made a monetary contribution intended to fund the
preparation or submission of this brief.

2
protected. To maintain constitutionally-mandated
neutrality on this religious issue, courts should hold
that the ministerial exception applies in this case.
ARGUMENT
Margaret DeWeese-Boyd was an associate professor
of social work at Gordon College, a religious institution.
She was denied full professorship because her
performance fell short of expectations. DeWeese-Boyd
sued Gordon College alleging retaliation due to her
vocal opposition to Gordon College’s position on
LGBTQ+ persons issues. DeWeese-Boyd v. Gordon
Coll., 487 Mass. 31, 34, 163 N.E.3d 1000, 1003 (2021).
Specifically, she alleged the following:
DeWeese-Boyd contends Gordon College
denied her promotion because she “has been one
of the most outspoken critics among the Gordon
College faculty regarding the College’s policies
and practices” concerning “LGBTQ+ individuals”
and the College’s prohibition against sexual
activity outside of marriage between one man
and one woman. DeWeese-Boyd claims her
“outspoken” criticism and her gender resulted in
the denial of her application for promotion.
DeWeese-Boyd v. Gordon Coll., No. CV 1777CV01367,
2020 WL 1672714, at *8 (Mass. Super. Apr. 2, 2020)
(citations omitted). The Massachusetts high court
considered the case to present a conflict between
constitutional religious autonomy and rights found in
one of this Court’s decisions. DeWeese-Boyd, 487
Mass. at 42, 163 N.E.3d at 1009 (citing Bostock v.
Clayton County, 140 S. Ct. 1731, 1737 (2020)). The

3
court held that the “ministerial exception” did not
apply, thus allowing DeWeese-Boyd’s claim to go
forward. DeWeese-Boyd, 487 Mass. at 54, 163 N.E.3d
at 1018.
In so doing, the Massachusetts court gave protection
from discrimination based on sexual orientation a
higher priority than protection of religious
organizations’ First Amendment right to hire only
those who share and live out their beliefs. The effect
was to force Gordon College to retain a teacher who is
openly committed to opposing Gordon College’s
religious purpose.
This Court has emphasized that extending
protections to LGBTQ+ persons would not force
religious organizations to stop teaching “the principles
that are so fulfilling and so central to their lives and
faith.” Obergefell v. Hodges, 576 U.S. 644, 679-80
(2015). “The First Amendment ensures that religious
organizations and persons are given proper protection.”
Id. The constitutional guarantee of free exercise of
religion forbids states from imposing regulations that
are hostile to the religious beliefs of religious ministries
like Gordon College and cannot act in a manner that
passes judgment upon or presupposes the illegitimacy
of their religious beliefs and practices. Masterpiece
Cakeshop, Ltd. v. Colorado Civ. Rights Comm’n, 138
S.Ct. 1719, 1731 (2018). Government must be tolerant
of religious beliefs, and even subtle departures from
neutrality violate the Free Exercise Clause. Id. Even
as this Court interpreted Title VII to protect sexual
orientation and transgender, this Court expressed
“deep concern” about “preserving the promise of free

4
exercise of religion enshrined in our Constitution.”
Bostock v. Clayton County, 140 S. Ct. 1731, 1754
(2020). “[T]hat guarantee lies at the heart of our
pluralistic society.” Id. Government fails to act
neutrally when it proceeds in a manner intolerant of
religious beliefs . . . .” Fulton v. City of Philadelphia,
Penn., 141 S.Ct. 1868, 1877 (2021).
Members of this Court predicted that Obergefell
would be “used to vilify Americans who are unwilling
to assent to the new orthodoxy.” Obergefell, 576 U.S.
at 741 (Alito, J., dissenting). This is concerning
because from its inception, American has been a haven
for religious liberty.
Id. at 733 (Thomas, J.,
dissenting). Justices on this Court have described
Obergefell’s refusal to denigrate religious beliefs as a
commitment. Fulton, 141 U.S. at 1925 (Alito, J.,
concurring). This Court should grant certiorari and
rule in favor of Gordon College because the lower
courts have not heeded this commitment to religious
liberty and have instead sought to limit it at every
turn.
The Constitution protects the right of any
organization to associate with those who share their
aims. Boy Scouts of America v. Dale, 530 U.S. 640,
647-48 (2000). The freedom to associate implies a
freedom not to associate. Id. at 648. Forced inclusion
of members who affect a religious organization’s core
beliefs violates the First Amendment. Id. at 659. This
principle “applies with special force with respect to
religious groups, whose very existence is dedicated to
the collective expression and propagation of shared
religious ideals.” Hosanna-Tabor Evangelical Lutheran

5
Church and School v. E.E.O.C., 565 U.S. 171, 200
(2012) (Thomas, J., concurring). If a religious group
believes that the ability of an employee to perform key
functions, such as serving as a messenger of its faith,
has been compromised, then the constitutional
guarantee of religious freedom protects the group’s
right to remove that employee from his or her position.
Id. at 199 (Alito, J., concurring).
Religious autonomy is deeply woven into both
federal and state law. This Court has repeatedly
recognized the independence of religious organizations
from secular control and manipulation. HosannaTabor, 565 U.S. at 186; Kedroff v. Saint Nicholas
Cathedral of Russian Orthodox Church in N. Am., 344
U.S. 94, 116 (1952); Watson v. Jones, 13 Wall. 679, 20
L.Ed. 666, 727 (1872). From its inception, this nation
has acknowledged the power of religious organizations
to decide for themselves matters of church government,
faith, and doctrine without state interference. Id. For
this reason, cases involving governmental interference
with religious employment decisions are a recent
phenomenon. Id. at 185. Title VII’s coreligionist
exemption protects the right of religious autonomy, as
does similar provisions in the law of nearly every state.
42 U.S.C. 2000e-1.
In Hosanna-Tabor, this Court agreed with lower
courts that constitutional religious protections require
a “ministerial exception.” 565 U.S. at 188. This Court
explained the need for the exception in this way:
Requiring a church to accept or retain an
unwanted minister, or punishing a church for
failing to do so, intrudes upon more than a mere

6
employment decision. Such action interferes
with the internal governance of the church,
depriving the church of control over the selection
of those who will personify its beliefs.
Id.
This Court refused to adopt a rigid formula for who
qualifies as a “minister.” Hosanna-Tabor, 565 U.S. at
190. However, it is clear that the ministerial exception
was intended to mean more than an ordained pastor or
priest. The concurring justices called for a broad
meaning, writing that “religious groups must be free to
choose the personnel who are essential to the
performance of [key religious] functions.” Id. at 199
(Alito, J., concurring). Because religious groups are
formed for expressive purposes, their fundamental
rights include the freedom to choose who is qualified to
serve as a voice for their faith. Id. at 200-01. “A
religion cannot depend on someone to be an effective
advocate for its religious vision if that person’s conduct
fails to live up to the religious precepts that he or she
espouses.” Id. at 201. If a religious group believes that
the ability of such an employee to perform key
functions such as teaching the faith have been
compromised, then the constitutional guarantee of
religious freedom protects the group’s right to remove
the employee from his or her position. Id. at 199 (Alito,
J., concurring). Teachers who are entrusted with
responsibility to educate and form students in the faith
qualify as ministers. Our Lady of Guadalupe Sch. v.
Morrissey-Berru, 140 S.Ct. 2049, 2069 (2020).
Recognizing the importance of avoiding state
interference with religious autonomy, federal and state

7
laws also observe a separate coreligionist exemption,
which prevents state interference with employment
decisions relating to religious beliefs and practices.
Title VII exempts religious organizations from its
prohibition against employment discrimination on the
basis of religion. Corporation of the Presiding Bishop
of the Church of Jesus Christ of Latter-Day Saints v.
Amos, 483 U.S. 327, 329 (1997).
This Court’s creation of sexual orientation and
transgender rights infuses these two exemptions with
heightened significance. This is because LGBTQ+
activists consider religious views on morality to stand
in the way of full public acceptance of their beliefs
regarding sexual orientation and gender identity. See
Romer v. Evans, 517 U.S. 620, 645-46 (1996) (Scalia, J.,
concurring); Chai R. Feldblum, Moral Conflict and
Liberty: Gay Rights and Religion, 72 Brook. L. Rev. 61,
87 (2006) (“Given this reality, we are in a zero-sum
game: a gain for one side necessarily entails a
corresponding loss for the other side.”).
Lower courts have interpreted Obergefell and
Bostock to have established a superior fundamental
right. In this case, the Massachusetts high court paid
lip service to Hosanna-Tabor and Guadalupe but
ultimately ignored the reasons why the First
Amendment required a religious exemption from
religious non-discrimination laws. DeWeese-Boyd
demonstrated a conflict of interest vis-à-vis Gordon
College’s religious beliefs. Her claim is based upon
adverse employment action due to her expressed
opposition to Gordon College’s religious standards.
DeWeese-Boyd, 487 Mass. at 34, 163 N.E.3d 1003. Yet

8
the court strained to read Hosanna-Tabor and
Guadalupe as narrowly as possible to prevent the
ministerial exception from applying. Id. at 52-54, 163
N.E..3d at 1016-18.
Other courts have held that the coreligionist
exception does not apply when an employee
characterizes a religiously-motivated decision as sex
discrimination.
Starkey v. Roman Catholic
Archdiocese of Indianapolis, Inc., 496 F. Supp. 3d 1195,
1203-04 (S.D. Ind. 2020). Decisions such as these
effectively offend the Constitution by coercing religious
organizations to hire and retain employees who are
openly hostile to their core values.
The effect of decisions such as these is devastating
to religious organizations. What the Massachusetts
court did to Gordon College could be done to any house
of worship, school, or religious group such as NHCLC.
Courts all across the land will rule that fundamental
sexual orientation rights require religious
organizations to hire and retain employees, including
teachers, who are not only openly working to overthrow
their core beliefs, but consider themselves to have a
fundamental right to do so.
Religious organizations, by their nature, are
organized around core religious beliefs. Many believe
that faith requires faithful action. What religious
employers expect from their employees is loyalty to
their cause, and a passion for furthering their missions.
It is not unreasonable for religious employers to expect
their employees to strive for consistency in thought,
word, and deed.

9
This is especially true of teachers, who serve as a
school’s messengers to its students. See HosannaTabor, 565 U.S. at 201 (Alito, J., concurring).
Educating young people in the faith is a responsibility
that lies at the very core of the mission of a private
religious school. Guadalupe, 140 S.Ct. at 2064.
The fact that DeWeese-Boyd taught social work
should not matter. There are many perspectives from
which social work can be taught. Gordon College is
entitled to select teachers who will teach all subjects
from the perspective that furthers their vision. This is
the primary reason many parents make the sacrifices
to send their children to private religious schools.
Because sexual orientation is a moral issue for
many religious groups, discrimination against sexual
orientation is a religious issue, not a gender issue. To
refuse to accept this is to place government in the
position of dismantling religious schools and forcing
them out of existence. The Free Exercise Clause
therefore demands accommodation for religious beliefs
that recognizes sexual orientation discrimination as a
form of religious discrimination. It is this concern that
undergirds the ministerial exception.
It is axiomatic that any team must have the ability
to pick its players. Kelsey v. Distler, 141 A.D. 78, 81,
125 N.Y.S. 602, 605 (App. Div. 1910) (recognizing that
“the principals had a right to select their own agents”).
It is even more readily apparent that a team required
to accept members of the opposing team will not
succeed. The reason is simple—the opposing team’s
members have a conflict of interest.
Such a
requirement could force litigants to accept counsel

10
chosen by their opponents. As Abraham Lincoln said,
“A house divided against itself cannot stand.” The
purpose of the ministerial exemption is to protect
religious organizations from these dangers.
The Massachusetts court’s ruling portends the
establishment of a new civil orthodoxy. The court
interpreted Hosanna-Tabor and Guadalupe narrowly
because of the fundamental rights DeWeese-Boyd
asserted—rights recently created by this Court.
DeWeese-Boyd, 487 Mass. at 41-42, 163 N.E.2d at
1008-09. It is recognized on all sides that LGBTQ+
persons disagree with many religious groups on the
issue of sexual orientation. By straining to subject
Gordon College to a law that is fundamentally opposed
to its religious purposes, the court aligned the state
against religion on a disputed religious issue. Some
have even characterized acceptance of sexualorientation dogma as a religion. Ryan Daniels, The
Gay Religion, 19 S. Cal. Interdisc. L.J. 129 (Fall 2009).
This violates nearly every First Amendment
standard.
The First Amendment forbids laws
“respecting an establishment of religion, or prohibiting
the free exercise thereof.”
The Establishment Clause prohibits laws whose
purpose or effect either advances or inhibits religion, or
when they foster excessive governmental entanglement
with religion. Lemon v. Kurtzman, 403 U.S. 602, 61213 (1971). An Establishment Clause violation occurs
when a law has the primary effect of inhibiting
religion. McDaniel v. Paty, 435 U.S. 618, 636 (1978).
The First Amendment forbids an official purpose to
disapprove of a particular religion or religion in

11
general. Church of the Lukumi Babalu Aye, Inc. v.
City of Hialeah, 508 U.S. 520, 532 (1993). Coercing
individuals or organizations to abandon their moral
beliefs on pain of violating state or federal law amounts
to a governmental endorsement of a position on
religion. Id. at 532. Government may not prefer those
who believe in no religion over those who believe.
Zorach v. Clauson, 343 U.S. 306, 314 (1952).
The Free Exercise Clause never permits targeting
of religious beliefs. Lukumi, 508 U.S. at 533. The
government may neither compel nor punish religious
beliefs. Employment Div., Dep’t of Human Resources
of Ore. v. Smith, 494 U.S. 872, 877 (1990). “[I]f the
object of a law is to infringe upon or restrict practices
because of their religious motivation, the law is not
neutral.” Lukumi, 508 U.S. at 533.
The First Amendment forbids states from imposing
regulations that are hostile to the religious beliefs of
religious ministries like Gordon College, and states
cannot act in a manner that passes judgment upon or
presupposes the illegitimacy of their religious beliefs
and practices. Masterpiece, 138 S.Ct. at 1731. The
lack of robust protections for religious freedom on this
issue would unconstitutionally violate the requirement
of governmental neutrality by forcing religious schools
to hire and retain teachers who have conflicts of
interest on core components of their organizational
missions. Dale, 530 U.S. at 647-48; Lynch v. Donnelly,
465 U.S. 668, 673 (1984) (holding that the Constitution
mandates accommodation and forbids governmental
hostility toward religion).

12
Failure to safeguard religious liberty can have
disastrous consequences. In Minersville School District
v. Gobitis, this Court rejected a religious-freedom
challenge to a mandate to recite the Pledge of
Allegiance. 310 U.S. 586 (1940). The Gobitis children
refused the recite the Pledge in obedience to a
Jehovah’s Witness teaching that it was a form of
idolatry. Brett G. Scharffs, Echoes from the Past:
What We Can Learn About Unity, Belonging and
Respecting Differences from the Flag Salute Cases, 25
BYU J. Pub. L. 361, 363-64 (2011). At that time,
United States involvement in World War II loomed on
the horizon. Id. at 366. Seeking to avoid stigmatizing
legislative attempts to rally patriotism, this Court held
that religious scruples could be overridden. Gobitis,
310 U.S. at 597-98.
Great human suffering followed. A legendary wave
of anti-Witness persecution swept the country
immediately after the decision. Scharffs, infra, at 371.
Within a week, hundreds of instances of vigilantism
were reported. Id. at 371-72. This included mob
beatings, burnings of Kingdom Halls, and attacks on
private residences. Id. at 372. Some Jehovah’s
Witness believers were arbitrarily imprisoned by
authorities who were complicit in the violence. Id.
“The number of attacks was so serious that the chief
of the civil rights section of the Department of Justice,
Victor W. Rotnem, published an article to draw
attention to the problem.” T. Jeremy Gunn, Religious
Freedom and Laïcité: A Comparison of the United
States and France, 2004 B.Y.U. L. Rev. 419, 491 (2004).
By the end of the year, Department of Justice filings

13
showed 335 separate instances of violence targeting
1,500 Witnesses. Austin Vining, How One Religious
Group Shaped Free Speech Jurisprudence in the Early
20th Century, Journalism History (Apr. 23, 2019),
https://journalism-history.org/2019/04/23/jehovahswitnesses-and-the-first-amendment/ (citing Marley
Cole, Jehovah’s Witnesses: The New World Society 111
(1955) (quoting Jehovah’s Witnesses General Counsel
Hayden Covington)). In Wyoming, some Jehovah’s
Witnesses were tarred and feathered.
Paul
Finkelman, Civil Rights in Historical Context: In
Defense of Brown, 118 Harv. L. Rev. 973, 997 (2005).
“In Nebraska, a Jehovah’s Witness was pulled from his
house and castrated.” Gunn, infra, p. 491.
In addition to the violence, many states stiffened
their laws compelling participation in patriotic
observances. Scharffs, infra, at 374. West Virginia
passed a law that was aimed directly at Jehovah’s
Witness children. Id. at 375. Thus, the unintended
result of Gobitis was not only persecution, but also
enhanced legal targeting.
Only three years after the Gobitis decision, this
Court reversed courses and ruled in favor of religious
freedom. In so doing, this Court emphasized that the
freedoms guaranteed in the Bill of rights are intended
to place certain rights beyond the reach of the law:
The very purpose of a Bill of Rights was to
withdraw certain subjects from the vicissitudes
of political controversy, to place them beyond the
reach of majorities and officials and to establish
them as legal principles to be applied by the
courts. One’s right to life, liberty, and property,

14
to free speech, a free press, freedom of worship
and assembly, and other fundamental rights
may not be submitted to vote; they depend on
the outcome of no elections.
W. Virginia State Bd. of Educ. v. Barnette, 319 U.S.
624, 638 (1943). This Court held that the “freedoms of
speech and of press, or assembly, and of worship may
not be infringed [except] to prevent grave and
immediate danger to interests which the state may
lawfully protect.” Barnette, 319 U.S. at 639.
This Court explained that governmental attempts
to compel unity often backfire:
Ultimate futility of such attempts to compel
coherence is the lesson of every such effort from
the Roman drive to stamp out Christianity as a
disturber of its pagan unity, the Inquisition, as
a means to religious and dynastic unity, the
Siberian exiles as a means to Russian unity,
down to the fast failing efforts of our present
totalitarian enemies. Those who begin coercive
elimination of dissent soon find themselves
exterminating dissenters. Compulsory
unification of opinion achieves only the
unanimity of the graveyard.
Id. at 641. This Court concluded by affirming that
moral orthodoxy may not be mandated by the state:
If there is any fixed star in our constitutional
constellation, it is that no official, high or petty,
can prescribe what shall be orthodox in politics,
nationalism, religion, or other matters of opinion
or force citizens to confess by word or act their

15
faith therein. If there are any circumstances
which permit an exception, they do not now
occur to us.
Id. at 642.
Barnette is directly on point in this matter. Courts
have staked out a moral position on sexual orientation,
arguably taking sides in the “culture war.” See Romer,
517 U.S. at 652 (Scalia, J., dissenting). The tide is
running so high that the Massachusetts court
considered the Gordon College’s choice to hire a
professor that furthers its religious aims to violate
DeWeese-Boyd’s fundamental rights with respect to
views on sexual orientation. DeWeese-Boyd, 487 Mass.
at 41-42, 163 N.E.2d at 1008-09. Precisely because of
the current rush to compel uniformity of sentiment, the
purpose of constitutional religious protection is at its
zenith.
As recognized on both sides of the dispute, the
battle over sexual orientation discrimination, at least
with respect to the moral acceptance of sexual
orientation, is a “zero-sum game.” Fulton, 141 S.Ct. at
1925. Because a direct conflict between church and
state exists on the issue of sexual orientation,
constitutional concerns exist that are not present in
mere gender-discrimination claims. The lack of robust
protections for religious freedom on this issue would
unconstitutionally violate the requirements of religious
autonomy and governmental neutrality by forcing
religious schools to hire and retain teachers who have
conflicts of interest on core components of their
organizational missions.

16
The Obergefell court commitment was that the First
Amendment ensures that religious organizations are
given proper protection even as LGBTQ+ rights are
recognized. Obergefell, 576 U.S. at 679-80. The
DeWeese-Boyd holding demonstrates that lower courts
are not keeping that commitment. They have read
Obergefell and Bostock to require the dismantling of
religious organizations.
Although the interests of religion and LGBTQ+
persons directly conflict on the moral issue, the
practical resolution need not amount to a zero-sum
game. This Court can recognize rights of sexual
orientation without running roughshod over religious
rights. In fact, the Constitution compels this result.
Many religious groups coexist in this nation, and they
have done so from its inception. Having granted broad
protections of LGBTQ+ rights, the Constitution
requires correspondingly broad protections for religious
organizations.
To accomplish these aims, the
ministerial exception should be broad enough to apply
to teachers at private religious schools.

17
CONCLUSION
For the reasons set forth above, amicus requests
that this Court grant certiorari and rule that Gordon
College had the constitutionally-protected right to
refuse to promote DeWeese Boyd due to her advocacy
of moral views that violate its religious standards.
Respectfully submitted,
TIMOTHY J. NEWTON
Counsel of Record
MURPHY & GRANTLAND, P.A.
Post Office Box 6648
Columbia, South Carolina 29260
(803) 782-4100
tnewton@murphygrantland.com

